<html>
<title> - TURKEY'S DEMOCRACY UNDER CHALLENGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   TURKEY'S DEMOCRACY UNDER CHALLENGE

=======================================================================

                                 HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                           Serial No. 115-15

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-917 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
JEFF DUNCAN, South Carolina          WILLIAM R. KEATING, Massachusetts
F. JAMES SENSENBRENNER, Jr.,         DAVID N. CICILLINE, Rhode Island
    Wisconsin                        ROBIN L. KELLY, Illinois
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David L. Phillips, director, Program on Peace-Building and 
  Rights, Institute for the Study of Human Rights, Columbia 
  University.....................................................     6
Mr. Mehmet Yuksel, Representative to the United States, People's 
  Democratic Party in Turkey.....................................    19
Mr. Ali Cinar, president, Turkish Heritage Organization..........    27
Ms. Naz Durakoglu, strategist and senior fellow, Digital Forensic 
  Research Lab, Atlantic Council.................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. David L. Phillips: Prepared statement........................     8
Mr. Mehmet Yuksel: Prepared statement............................    21
Mr. Ali Cinar: Prepared statement................................    29
Ms. Naz Durakoglu: Prepared statement............................    48

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
Ms. Naz Durakoglu: Revised prepared statement submitted after the 
  hearing........................................................    66
Mr. David L. Phillips: Material submitted for the record.........    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    77
Internet link for material submitted for the record by the 
  Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats..................................    79

 
                   TURKEY'S DEMOCRACY UNDER CHALLENGE

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good afternoon. I call this hearing to 
order. Today, we return our attention to the political 
situation in Turkey. I could have waited 1 more minute. There 
you go. Okay.
    Today, we return our attention to the political situation 
in Turkey. Those of you who have followed the work of this 
subcommittee will note that this is a topic we have dedicated 
significant time toward in the past. This has not been 
motivated by malice, but a sincere desire to keep the United 
States-Turkish relationship rooted firmly in shared interests 
and shared values.
    As we meet now, voting is already under way in a referendum 
to rewrite the Turkish Constitution. Voting is expected to be 
completed later this month on April 16. If adopted, the new 
amendments to the Turkish Constitution will cement in law much 
of the power President Erdogan has already seized for himself. 
The new Constitution would see Turkey convert into a 
Presidential system, combining the head of state, head of 
government, and head of the ruling party all into a single 
powerful office.
    Once all that is done, the Prime Minister's leading 
position will be eliminated. The President will be able to 
select his own Vice Presidents and his own Cabinet. The power 
of the legislature to check the executive branch would be 
drastically reduced.
    After reviewing the proposed changes and the Council of 
Europe's Venice Commission, an advisory body of constitutional 
experts, concluded that these amendments that are being voted 
on by the Turkish people, ``represent a dangerous step 
backwards,'' and that these changes put Turkey on a path 
towards, and I quote, ``an authoritarian'' regime.
    This referendum is the latest in a long list of actions 
taken by the Turkish Government under Erdogan, and under 
Erdogan, we have seen, basically, the civil society, closed 
space for them; silencing the media; you have seen sidelining 
of the judiciary; and a neutering of the military, of course.
    I recognize the traumatic and unsettling nature of the 
failed July coup, but Erdogan started down this path toward 
authoritarianism long, long before that coup. President 
Erdogan's desire to maintain power at any cost is not good for 
the people of Turkey. It is not healthy for Turkey's democracy, 
obviously. It is not in the interest of Turkey. And Erdogan, if 
nothing else, is spoiling Turkey's relationship with Europe and 
the United States and, alarmingly, has opened up Turkey to a 
greater risk of attack by radical violent Islamists.
    Lastly, while thousands of Turks have been unjustly fired 
and arrested, forced abroad, I need to highlight one particular 
case. And that is Reverend Andrew Brunson, an American citizen 
who has been needlessly detained in Turkey since last year. In 
February, I, along with 75 other Members of Congress, signed a 
letter to President Erdogan requesting his release. Sadly, Mr. 
Brunson remains in jail, and this case continues to be an 
impediment to our relationship.
    I want to thank all of our members for coming today. I 
don't have many on my side of the aisle. I thank my Democratic 
colleagues for joining us today. I am going to yield to Mr. 
Meeks for his opening statement. Then each member will be 
granted 1 minute for an opening statement. And then we will 
hear from the witnesses.
    Mr. Meeks.
    Mr. Meeks. Thank you, Chairman Rohrabacher, and for the 
opportunity to talk about the U.S.-Turkish relationship. I see 
we have got a full audience today, and the timing is 
interesting, as it is less than 2 weeks before the important 
constitutional referendum.
    The timing is also unfortunate because I know how 
congressional hearings resonate in Turkey and are sometimes 
used to misrepresent the feelings of Congress. I do hope that 
this hearing helps foster better relations between our two 
countries and does not fuel anti-American sentiment in Turkey 
with either side.
    Nevertheless, as someone who has visited Turkey several 
times and loved Turkey and particularly the Turkish people, it 
pains me to watch what is transpiring in that beautiful 
country. The attempted coup that we discussed in our last 
hearing in Turkey was a traumatic shock to the system. In the 
aftermath, President Erdogan sought to rid the government 
agencies of coup plotters, Gulenists and more, and what he has 
actually done is overreached, and he is not respecting due 
process or the basic tenets of democracy in what appears and is 
a power grab.
    And I have already heard from several members of my 
community, in my constituency and folks from Queens, who are 
very concerned about the democracy and how it will continue in 
Turkey and whether or not those individuals who have been 
jailed and were not given due process, what will happen to 
them, and how long will this continue. This is of tremendous 
concern to me.
    Now comes another test: The upcoming referendum that 
attempts to turn the Turkish Government into what is being 
called a Presidential system. The question is, why now? Is 
there a special need to formalize President Erdogan's power in 
light of threats that are real or imagined? Regardless of the 
outcome of the referendum, which seems to be hardly fair and 
free, I do not see how Turkish democracy wins.
    In either scenario, the economy will continue to suffer; 
the brightest will continue to leave Turkey; and the space for 
a liberal Turkey will become even smaller. And during this 
difficult time, our Secretary of State paid a visit without 
mentioning anything of the troubles I and our chairman have 
outlined.
    It is difficult to speak honestly with allies in trouble. 
It is easier to skip that conversation and hide behind the 
rhetoric of the war against ISIS.
    I hope that Mr. Flynn, Mr. Michael Flynn's role, who was a 
paid foreign agent in the Trump administration, has nothing to 
do with the egregious silence on the state of democracy in 
Turkey.
    As I follow my former mayor's recent interest in Turkey, I 
hope that Mr. Giuliani's work to protect Turkish bankers does 
not seep into the Trump administration's position, for far too 
much is at stake.
    We are discussing a NATO ally, and it is best for the 
United States that Turkey remain in NATO because a Turkey 
without that anchor is left in a difficult region and--it is an 
understatement--without support, without someone to work with 
them in the difficult nature of democracy. Both NATO and the 
U.S. have a tremendous opportunity and responsibility with our 
ally Turkey in this regard.
    And despite the crackdown on freedom of speech in the 
Turkish press, despite the firing and jailing of tens, if not 
hundreds of thousands, of public servants, and despite the fact 
that this election will likely not be free and fair, people 
still in Turkey are in the streets demonstrating. The Turkish 
people are resisting and persisting in the face of great odds.
    This is the hope that I want to keep alive. The Turkish 
people care about their democracy. All you have to do is ask 
them, and that is why they are in NATO, and that is why I am 
here today to listen and to learn from our witnesses. And I 
would like to thank Ms. Durakoglu for being here with us again. 
I know she was up on the Hill and the State Department for a 
while, and I just wanted to say I am happy to see you back here 
on the Hill.
    I yield back.
    Mr. Rohrabacher. All right. Mr. Sherman.
    Mr. Sherman. A couple of notes.
    Mr. Rohrabacher. 1 minute.
    Mr. Sherman. A couple of notes on history.
    Early in the 20th century, the Armenian people were subject 
to a genocide that will be recognized here in this building 
today. And Turkey would be a better ally of the United States 
if we had a government that came to terms with its history 
rather than one that tried to engage in genocide denial.
    Early in the 21st century, Erdogan welcomed, or at least 
turned a blind eye, to ISIS fighters going across Turkey, using 
Turkey as a place for R&R and recuperation and medical 
training, in part because they were fighting against Assad. 
Now, he faces a blowback from the same ISIS fighters that he 
once welcomed or at least gave safe passage to.
    Erdogan is not a democratic leader. He is, as others have 
pointed out, moving Turkey toward authoritarianism. That being 
said, there is an effort to designate the Muslim Brotherhood as 
a terrorist organization. I for one would want to make sure 
that any such action did not include the AKP, which may have 
some philosophical roots with the Brotherhood but is not, at 
least at this stage, a terrorist organization.
    I yield back.
    Mr. Rohrabacher. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing to evaluate the challenges facing democracy in Turkey, 
and thank you to our panelists for being here today.
    While Turkey has been a strategic partner of the U.S. and a 
key NATO ally in a volatile region, I am deeply troubled by the 
actions of President Erdogan and his government following last 
year's coup and the implications these actions have on the 
future of democracy in Turkey.
    Amid the atmosphere of distrust, Turkey's government has 
detained or dismissed thousands--tens of thousands--of 
personnel within its military, judiciary, and civil service, 
and the education system, as well as taken over or closed 
various businesses, schools, and media outlets. It is unclear 
how long this type of purge will last, but it is imperative 
that the U.S. and our European partners continue to press 
Turkey to follow the rule of law.
    The emerging relationship between Erdogan and Putin also 
contributes to not only the uncertain future of U.S.-Turkey 
relations but to the future of democracy in Turkey as well. In 
less than 2 weeks, we will have a clearer picture of the 
trajectory of democracy in Turkey when Erdogan's proposed 
constitutional changes to increasingly consolidate his power 
will be put to a vote.
    Hopefully, the referendum will be held freely and fairly 
without undue influence. The Turkish Government should take the 
opportunity to, in these unstable times, to unite Turkey and 
not to intensify division and mistrust. I look forward to 
hearing from our esteemed panel of witnesses on their views of 
the current events and the impact on the U.S.-Turkey 
relationship, and thank you.
    Mr. Rohrabacher. All right. Thank you very much.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Rohrabacher, and Ranking 
Member Meeks for calling this important and timely hearing.
    Turkey remains a key ally in the fight against ISIS yet has 
had considerable challenges of its own in recent years. 
President Erdogan has consolidated power in recent years, 
culminating with the planned referendum this month that would 
give him sweeping authority and jeopardize the Turkish 
democratic system moving forward.
    I am greatly concerned by Erdogan's government's use of 
mass arrests of civil servants, critics, journalists, 
academics, and anyone he perceives as an opponent. The 
government's use of a state of emergency to carry out a 
sweeping crackdown against anyone who dissents with his views 
is counter to democratic values.
    The Trump administration has thus far shown no willingness 
to criticize the undemocratic and repressive tendencies of the 
Erdogan government, a position which I fear will only lead to 
further bad and destabilizing behavior. Moreover, 100 years 
after the fact, the Turkish Government continues to deny its 
well-established role in the Armenian genocide and continues to 
target Armenian, Kurdish, and other minorities within its 
borders.
    As we approach the commemoration of the 102nd anniversary 
of the Armenian genocide, it is my hope that this is the year 
in which the American President will fully recognize the 
atrocities perpetuated against the Armenian people by the 
Ottoman Empire beginning in 1915.
    The Armenian people deserve full recognition and acceptance 
of their suffering. I look forward to today's testimony and to 
having an opportunity to discuss these issues in more detail.
    And I thank you and yield back.
    Mr. Rohrabacher. Thank you.
    And Ms. Kelly.
    Ms. Kelly. I pass.
    Mr. Rohrabacher. All right.
    Well, I would like to welcome our witnesses today, and I 
would ask if the witnesses could keep it down to 5 minutes and 
please submit anything more than that for the record, and that 
will be part of the record of this hearing.
    I will introduce the witnesses, and then we will proceed 
down the line. First is David Phillips as director of the 
program on Peace-Building and Rights at Columbia University's 
Institute for the Study of Human Rights. He is also the author 
of a recently released book. There it is. I am a writer, and I 
always wanted to have a book, but I haven't got one yet. But 
thank you for sharing that with us today and the knowledge that 
you gained. Your book is entitled, ``An Uncertain Ally,'' and 
it is specifically about Turkey. So we appreciate you sharing 
this expertise with us today as you did, sharing your talents, 
as a foreign affairs expert and senior advisor at the State 
Department.
    We have with us also Mehmet Yuksel. I hope I am pronouncing 
this correctly.
    Mr. Yuksel. Mehmet Yuksel.
    Mr. Rohrabacher. Yuksel, okay, why don't you pronounce it 
for us?
    Mr. Yuksel. Yuksel.
    Mr. Rohrabacher. Yuksel. Okay. He is a representative of 
the People's Democratic Party, or the HDP, in the United 
States. He has spent his career working in the United States 
and in Europe to promote conflict resolution between Turks and 
the Kurdish minority. We appreciate you being with us today and 
sharing your insights.
    And Ali Cinar is President of the Turkish Heritage 
Organization and has a long track record in terms of working on 
U.S.-Turkey bilateral relations. He has been both a journalist 
and a businessman and is well versed on the issues that we are 
going to be discussing today.
    And I am going to ask Naz to pronounce her last name for us 
again.
    Ms. Durakoglu. Durakoglu.
    Mr. Rohrabacher. Okay.I am going to get it. All right. You 
got it. If anybody can pronounce Rohrabacher correctly, I am 
going to give them an award as well. She is a senior fellow at 
the Atlantic Council's Digital Forensic Research Lab. She comes 
to us having recently left the State Department. I remember her 
having here on several occasions. She was a senior advisor on 
Europe and Eurasia topics, and before that, she worked on 
Capitol Hill, including as a minority staff director for this 
subcommittee.
    So welcome back, and we appreciate all of our witnesses.
    We would start off with Mr. Phillips and then just say 5 
minutes, and we will just go right down the line, and at that 
point, we will up for dialogue between the members and the 
witnesses.
    So Mr. Phillips.

STATEMENT OF MR. DAVID L. PHILLIPS, DIRECTOR, PROGRAM ON PEACE-
 BUILDING AND RIGHTS, INSTITUTE FOR THE STUDY OF HUMAN RIGHTS, 
                      COLUMBIA UNIVERSITY

    Mr. Phillips. Thank you, Mr. Chairman. I would like to 
address two falsehoods that define the U.S.-Turkey 
relationship. The first is that Turkey is a secular democracy. 
It is neither secular nor is it a democracy.
    In 1998, Mr. Erdogan read a poem, ``The mosques are our 
barracks, the domes are helmets, the minarets our bayonets, and 
the faithful are soldiers.'' He was convicted to a 10-month 
prison term for inciting hatred based on religious differences.
    The other myth is that Turkey is an important member of 
NATO. That may have been the case, but given the close 
collusion between Turkey and jihadists, including the Islamic 
State, beginning in 2013, there is serious cause for concern. 
NATO is more than a security partnership. It is a coalition of 
countries with shared values. Because Turkey today, under 
Erdogan, is Islamist, antidemocratic, and hostile to human 
rights, if NATO were being established, Turkey simply wouldn't 
qualify as a member.
    On the subject of Islamism, when the AKP won a resounding 
electoral victory in July 2007, instead of addressing human 
rights concerns or the Kurdish question, Erdogan introduced 
legislation to permit the wearing of a hijab in public 
institutions. Just 2 weeks ago, women were allowed to wear the 
hijab in the military.
    There is widespread corruption in Turkey. On December 17 of 
2013, Mr. Erdogan was recorded speaking to his son about how to 
dispose of tens of millions of dollars of assets, including 
plans to buy luxury apartments on the Bosporus. There have been 
50,000 WikiLeaks recordings of his son-in-law, Berat, colluding 
with ISIS to sell oil from Syria, the proceeds of which, at its 
peak, was generating $3 million a day and was used to support 
the Islamic State.
    Serious concerns exist about freedom of expression and 
assembly. The 1991 law on the fight against terrorism is used 
to silence critics. Article 8 of the Anti-Terror Act applies 
selectively to restrict freedom of expression. Article 301 of 
the penal code makes it a crime to denigrate Turkishness.
    When Turks gathered in Gezi Park in May 2013 to protest 
plans to build a shopping mall in a green space, they were 
violently dispersed by riot police. Protests spread to 60 
cities as a result of police brutality. There was scant media 
coverage of the events while they were going on. Turkish 
national television broadcast a documentary about the migration 
of penguins.
    Provocateurs were tracked after Gezi, and they were rounded 
up. The national intelligence agency is allowed to gather 
personal data without court order. By November 2016, Turkey has 
more journalists in jail than any country in the world. In 
fact, a third of all journalists that are jailed come from 
Turkey. There are about 150 imprisoned. About 160 media outlets 
have been closed.
    On the transparency report of Twitter censorship, Turkey 
ranks high for crackdown on social media. It was reported in 
the Turkish media that President Erdogan called imprisoned 
journalists terrorists, child molesters, and murderers.
    Gag orders have been issued for specific activities, 
including reporting on the transfer of weapons from Turkey to 
Islamic State fighters. The editor in chief of Cumhuriyet was 
sentenced to 5 years for reporting weapons transfers to Syria. 
There is some contestation about Turkey's collusion with ISIS. 
We have conducted an extensive research report, which I have 
submitted to the committee for the record.
    Let's remember that Fethullah Gulen and Tayyip Erdogan were 
fast friends and partners. Their relationship soured and Gulen 
was accused of running a parallel state, of orchestrating the 
corruption crackdown in 2013. After the coup of July 15, 2016, 
there was a systematic crackdown that you have referenced. 
About 140,000 Turks have either been imprisoned or removed from 
their positions. These include members of the security as well 
as educators.
    Turkey has become an outlier in Europe. The European 
Parliament voted to suspend Turkey's EU membership negotiations 
on November 24 of this year. When the Justice and Development 
Party wanted to send ministers to campaign for the referendum 
in Germany and in the Netherlands, they were not allowed to do 
so because of security concerns. Erdogan responded to that by 
calling Chancellor Merkel subject to Nazi measures. He 
described the Dutch action and Dutch Government as Nazi 
remnants and fascists. Recently a minister said that they would 
launch jihad in Europe if they were not allowed to campaign 
there, and they threatened to release 15,000 refugees a week 
into Europe if Europe and Turkey continued to head south in 
their relationship.
    On minority rights, we will hear from Mr. Yuksel. Let me 
just say that there are serious concerns about Greek issues and 
Armenian issues. I chaired the Turkish Armenian Reconciliation 
Commission for 4 years. There was a legal opinion issued 
indicating that the events could be characterized as genocide. 
Recently, Turkey has intensified its repression against 
Armenians. It refused to submit the protocols on normalization 
for ratification. On Greek issues, the Ecumenical Patriarch 
still suffers great repression.
    Mr. Rohrabacher. Thank you very much.
    Mr. Phillips. In our discussion, I will discuss some 
recommendations with you.
    [The prepared statement of Mr. Phillips follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. All right. Thank you.
    Mr. Yuksel.

 STATEMENT OF MR. MEHMET YUKSEL, REPRESENTATIVE TO THE UNITED 
          STATES, PEOPLE'S DEMOCRATIC PARTY IN TURKEY

    Mr. Yuksel. Dear Honorable Chairman Dana Rohrabacher and 
distinguished members of the House subcommittee. It is an honor 
for me to testify today on crucial development in Turkey.
    I would like to discuss a few major threats to democracy in 
Turkey and the rule of law.
    The constitutional amendments that are proposed by 
President Erdogan and AK Party project an authoritarian system 
of governance whereby absolute power is held by a single 
person. Even though the proposed constitutional amendments have 
not been legally accepted, the amendments have been implemented 
and practiced under the state's rule of emergency.
    Let me list the several indication for extralegal and 
single-person rule in the Kurdish area especially and against 
the Kurdish political parties.
    Since the failed coup attempt, July 2016, 11 HDP deputies 
have been arrested and jailed, including co-chair Selahattin 
Demirtas and Figen Yuksekdag. The freedom of speech that 
democracy supports and Turkey's Constitution guarantees is the 
basic allegation that co-chair Demirtas for what he is 
subjected to over 500 years of detention.
    Between July 2015 and March 2017, 8,930 HDP members were 
detained and 2,782 party members have been imprisoned; 494 HDP 
offices have been attacked, burned down, and vandalized, 
including HDP headquarters. Rallies were attacked and law 
enforcement support for these attacks has been widely 
documented.
    Around 10,000 municipality and humanitarian employees of 
Kurdish origin have been suspended from their positions. The 
government has also confiscated the monetary assets of the 
people they remove from their positions. Almost all of the 
media outlets protesting in Kurdish, both local and national 
levels, were closed. Kurdish journalists are arrested and sent 
to the prison. Even daycares where Kurdish is spoken have been 
shut down by the government.
    In the prisons, especially, the torture and ill-treatment 
methods have mainly been widely practiced, and there is ongoing 
hunger strike in the prisons for 50 days in some of the 
prisons.
    The number of internally displaced in southeastern Turkey 
is estimated between--estimated about half a million people, 
mainly the citizens of origin Kurdish. The humanitarian aid to 
the IDP is very limited. All of the local humanitarian NGOs 
have been shut down.
    The governmental aid to IDPs is also conditioned upon 
leaving their properties and lands, which will bring a 
demographical change in the Kurdish-populated areas. Many 
people have already left the areas.
    The authorities have also imposed extended around-the-clock 
curfews on 30 towns and neighborhoods, prohibiting any movement 
without permission for extended periods of time, lasting up to 
several months. These months-long around-the-clock curfews have 
prevented civilians to evacuate the towns where the Turkish 
military conducted the operation.
    The lack of emergency services to the sick and wounded 
ultimately contribute to a high toll of deaths in these 
operations. In total, 2,000 people were killed during these 
operations and under the curfew.
    The public prosecutors have consistently refused to open an 
investigation on the reported killings. Failure to conduct the 
investigation of the killings is clear violation of 
constitutional and international human rights laws.
    In Cizre, 189 me, women, children were trapped in the 
basements of the buildings that were heavily shelled by Turkish 
security forces. These people did not have any access to water, 
food, and medical attention. Even though the trapped were 
calling for attention and help from the international community 
via phone conversations and videos, they were burned alive by 
the Turkish security forces.
    The Kurdish cities, which has been attacked by the security 
forces is Silvan--Sur, Silvan, Lice, Nusaybin, Dargecit, Cizre, 
Silopi, Sirnak, Idil, and Yuksekova. Those towns have been 
destroyed by the Turkish security forces. The images of the 
destroyed Kurdish cities resemble Syria's civil war images, 
which you have also a copy of the photo of some destructions.
    On March 10, 2017, the United Nations Human Rights office 
published a report detailing massive destruction, killings, and 
numerous of other serious human rights violation committed by 
Turkish forces between July 2015 and December 2016 in Turkey.
    Honorable chairman and distinguished members of the House 
subcommittee, my people in Turkey are going through a full-
scale assault, which could be viewed as a form of genocide. The 
Turkish authorities have seen the Kurdish identity as the main 
enemy. Fighting this enemy, they have been conducting a slow-
motion genocide.
    I urge the United States House of Representatives to 
authorize this concern, to launch an investigation on crimes 
against humanity committed in southeastern Turkey and the 
Kurdistan of Turkey; to take action to put further pressure on 
Turkish authorities to respect democracy, rule of law, and 
human rights; ensure the freedom of speech with releasing 
thousands of political prisoners and journalists.
    I also urge the House of Representatives committee to act 
upon mediating peace talks and negotiation in Turkey to achieve 
a peaceful political solution to the Kurdish issue in Turkey 
and to encourage Turkish authorities to resume peace talks and 
mediate the peace process and achieve a political solution.
    With the approaching referendum on the constitutional 
amendments, Turkish society has become further polarized across 
different social and ethnic and sectarian groups. What has been 
quite worrisome is the fact that the ruling AK Party has been 
arming its supporters, and state authorities have been 
encouraging attacks on dissident groups within the country.
    If the situation in Turkey is not taken seriously and the 
democracy and the rule of law----
    [The prepared statement of Mr. Yuksel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Cinar.

    STATEMENT OF MR. ALI CINAR, PRESIDENT, TURKISH HERITAGE 
                          ORGANIZATION

    Mr. Cinar. Good afternoon, Chairman, Ranking Member, and 
members of the subcommittee. It is an honor for me to testify 
today.
    I am sure everyone would agree that 2016 was a particularly 
challenging year for Turkey and U.S. relations. There are 
disagreements and tensions over two major security issues, U.S. 
support of the PYD in Syria and Turkey's request for the 
extradition of Fethullah Gulen.
    Understanding Turkey's democracy that is under challenge 
requires a comprehensive review of its domestic and regional 
risks. Terrorism continues to be the Turkey's number one 
security concern.
    Overall, more than 270 people lost their lives in at least 
12 major terror attacks by ISIS and PKK in Turkey, making 2016 
a year of terror.
    July 15 coup attempt, which was carried out by a faction 
with the Turkish armed forces, took a considerable toll on the 
Turkish nation. According to the Turkish Government, the coup 
attempt was organized by Fethullah Gulen and his followers. The 
Majority of Turkish people, including opponents of President 
Erdogan, believe that Gulen was the organizer of the coup 
attempt.
    Gulen's network's influence of state institutions in Turkey 
was a well-known fact. For the first time in its history, 
Turkey, a country that is all too familiar with the periodic 
military disruptions, was able to stop a military coup, but it 
claimed 249 lives and injured over 2,000 people.
    Turkey had survived an enormous threat and had to make 
difficult choices in the aftermath of the coup attempt. The 
emergency rule, which is still in effect, was aimed at taking 
the necessary measures and eliminating the complex national 
security risks that it created.
    Turkey is gearing up for a historical referendum on April 
16 when voters will decide whether or not to approve 
constitutional amendments that will shift Turkey's current 
parliamentary system to an executive Presidency. Upcoming 
referendum is an attempt by the Turks to start a new chapter, a 
chapter that doesn't involve any military imposed constitution.
    Under the proposed changes to the Constitution, the 
President will be elected directly by the people with more than 
50 percent of the votes, which means that there will be a 
better representation of the national will. The Turkish 
Parliament will remain involved in the political process and 
able to investigate the President, if needed.
    Considering the challenges Turkey faces, my understanding 
is that the proposed changes will set the foundation for a more 
stable and secure Turkey. Don't we, the United States, need a 
much stronger ally in the region?
    The Kurdish issue. Since 1980, Turkey has been experiencing 
a violent conflict with the Kurdistan Workers' Party. PKK is 
classified as a terrorist organization by United States, NATO, 
and European Union. The fight between the PKK and the Turkish 
state cost more than 40,000 lives.
    When looking at the Kurdish issue in Turkey today, it is 
important to separate Turkey's Kurdish population from the PKK 
terrorist group. There are concerns about certain HDP members 
maintaining links to PKK or otherwise supporting the terrorist 
group, such as in case of some HDP members attending the 
funerals of PKK terrorists, meeting at their base camp in 
Kandil, and posing photos. It must also be remembered that, 
despite a base that is broadly Kurdish, the HDP is not de facto 
representative of all Kurds in Turkey.
    Freedom of expression and the media constitute an important 
pillar of human rights in Turkey. It is a fundamental freedom 
guaranteed under the Constitution and other relevant 
legislation. It is important to note that the post-coup-attempt 
state of emergency has required extraordinary actions in order 
to ensure the stability and security of Turkey. Those 
journalists who have been detained or arrested under the state 
of emergency have been charged with serious crimes, which 
include spreading propaganda for terrorist organizations such 
as PKK and FETO.
    Domestic remedies exist for those who believe they have 
been wrongfully suspected in antiterrorism investigations. The 
Inquiry Commission on the State of Emergency Measures addresses 
the applications from citizens who feel they have been 
wrongfully persecuted. This provides an effective domestic 
legal remedy to any false accusations.
    U.S.-Turkey relations are more important now than ever. 
Turkey and Turkish democracy is experiencing an exceptional 
period of stress due to the security concerns. A weaker 
destabilized Turkey will be a disaster not just for citizens of 
Turkey but for Europe, NATO, and U.S. As Joint Chiefs Chairman 
General Dunford said during an Ankara visit, an express 
willingness to work through these issues and share perspectives 
will mean stability in the region.
    The U.S. remains the ideal example of such democracy, and 
it is important now more than ever that Washington and Ankara 
maintain and improve their strategic and historic relationship 
in order to ensure the security of both their countries.
    I would like to thank you again, Mr. Chairman and the 
committee members, for giving me the opportunity to be a part 
of this hearing today.
    [The prepared statement of Mr. Cinar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And we wanted to make sure that we had somewhat of a 
balance to this hearing, and that is always important to have 
at least one point of view that differs.
    And we thank you for coming today. And knowing that that is 
a challenge in today's society, to step forward with your 
testimony, we appreciate it very much.
    You may proceed.

 STATEMENT OF MS. NAZ DURAKOGLU, STRATEGIST AND SENIOR FELLOW, 
        DIGITAL FORENSIC RESEARCH LAB, ATLANTIC COUNCIL

    Ms. Durakoglu. Thank you, Chairman Rohrabacher, Ranking 
Member Meeks, and members of the committee. It is an honor to 
testify before you both as a witness and a former staffer on 
this committee under Congressman Bill Keating.
    Congressman Bill Keating's commitment to public service and 
my work with all of you continues to be an inspiration to me.
    The Turkish referendum on April 16 should not be viewed as 
a standalone domestic event; rather, a critical moment in 
Turkey's history with wider implications for the transatlantic 
community and NATO alliance.
    The vote comes at a time of heightened fear, polarization, 
and trauma for Turks, who have endured one of the deadliest 
years in their recent history, a failed coup on July 15, and a 
subsequent purge of institutions across Turkey.
    This environment colors the constitutional package at the 
center of the referendum. If passed, Turkey's parliamentary 
structure would change into a Presidential system with few 
checks and balances. I detail these changes in my written 
testimony but would like to emphasize that under the proposed 
constitution, the new President would exercise almost complete 
executive control with the ability to appoint and dismiss all 
ministers with no legislative buy-in.
    Further, the proposed amendments weaken instead of 
strengthen the Turkish judiciary and give the President the 
power to appoint two-thirds of the country's senior judges. No 
matter the outcome, Turkey's partners must prepare to engage 
with the Turkish state that is in battle for its future.
    The four key areas to watch are transatlantic security, 
energy cooperation, economic prosperity, and democratic values. 
Having the second largest military in the NATO alliance, Turkey 
has a profound influence on international security matters. The 
use of Turkey's Incirlik Air Base allows for 25 percent more 
strikes against ISIS in Syria, and much of the United States' 
humanitarian aid work there is based out of Turkey.
    Last week, Secretary Tillerson visited Turkey to discuss 
the campaign against ISIS in Raqqa. The final assault on Raqqa 
has stalled over a disagreement on which forces to use. The 
U.S. would prefer to see Raqqa taken by a coalition of Arab and 
Kurdish YPG units, collectively known as the Syrian Democratic 
Forces. Because Turkey considers the YPG an extension of the 
banned PKK, the Turkish Government is proposing to use its own 
military and a mix of local Arab partners to take back Raqqa.
    Since the SDF has proven to be a reliable force on the 
ground in Syria and given no viable alternative, the United 
States will most likely back the SDF option. However, it 
appears to be waiting for the outcome of Turkey's referendum 
before making any announcement.
    While President Erdogan would have additional control over 
the Turkish military if the referendum passes, it is unclear 
how he will react to this decision. The buildup to the 
referendum has also instigated worrying diplomatic roads 
between Europe and Turkey. The tension between these two 
critical partners of the U.S. may result in long-term damage to 
Turkey's EU prospects and to NATO's common defense community.
    If emboldened by a victory, President Erdogan may seek to 
test Europe's limits further and bring Turkey's EU candidacy to 
a halt. A loss in the referendum fueled by conspiracies about 
European intervention may be just as detrimental. Regardless, 
NATO allies will need to work to steady relations between all 
partners.
    The outcome of the Turkish referendum can also impact 
regional energy cooperation. The dynamic of Turkey's influence 
on the Cyprus reunification process and the negotiations' 
implications on the eastern Mediterranean's gas reserves is of 
note. A successful referendum could empower some Turkish 
nationalists in the MHP who helped usher the package through 
Parliament in January. Their views on Cyprus and the Turkish 
military presence there may spoil a potential agreement.
    It is not clear if President Erdogan will follow MHP's lead 
after the referendum. What is clear, however, is that once the 
referendum is over, Turkey will have more time and attention to 
focus on Cyprus. If a deal is reached, reconciliation between 
Turkish and Greek Cypriots can occur, and Mediterranean gas can 
flow into the European market.
    The last two international considerations surrounding 
Turkey's referendum are economic prosperity and democratic 
ideals, which go hand in hand. Turkey experienced growth and 
economic stability early on under President Erdogan. Recently, 
the AK Party government's indifference toward democratic 
institutions, rule of law, and freedom of expression has 
undercut Turkey's lasting prosperity.
    It is difficult to foresee how a consolidation of power 
away from the judiciary and into the executive would enhance 
the democratic principles needed for an open trade-based 
economy. The only way to bring about more certainty in the 
Turkish economy is if checks and balances are restored and 
maintained.
    Turkey has always been strongest when it comes close to the 
ideal of a liberal democratic society where all voices are 
tolerated. For this reason, Turkey's partners must address 
challenges to democratic norms head on. Only direct U.S. 
engagement, a true partnership, and conversation about Turkey's 
commitment to democratic ideals can deter worse behavior, 
enhance global security, and bring Turkey to the table on 
critical issues.
    In order to be taken seriously, the West must also hold 
true to its own democratic values and principles. If attacks 
against the press, unethical behavior, or disregard for 
democratic institutions becomes commonplace, it will be 
difficult to make the case of their importance in Turkey and 
other countries.
    Mr. Chairman, Ranking Member Meeks, members of this 
committee, thank you again for your careful attention to U.S.-
Turkey relations. I look forward to your questions.
    [The prepared statement of Ms. Durakoglu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. And thank all of you for your testimony 
today.
    The Chairman will start the questions, and then we will 
proceed with the rest of the members.
    Let me start. The contrast between our two central 
witnesses here was dramatic in terms of the picture that was 
being painted.
    Let me just ask: Mr. Cinar, you mentioned that freedom of 
expression and the press in Turkey is something that Turkish 
people cherish and over the years have expected to live with, 
and there are certain guarantees of that freedom. But yet you 
did recognize that, today, there has been a wave of 
suppression, freedom of speech. There has been a wave of 
destruction, freedom of the press, but you mentioned you really 
put that fault on the state of emergency, which is a result of 
the coup attempt.
    My question for you, Mr. Cinar, is, what about the 
newspapers that were closed up and the journalists that were 
arrested and kicked out of their job long before the coup? We 
have been hearing reports. This committee has had a number of 
hearings on Turkey. I have always tried to be fair, make sure 
both sides are represented, but we had testimony in our very 
first hearing on Turkey long before the coup attempt.
    So how can you excuse the suppression of freedom of the 
press and expression, excuse it by saying ``the coup'' and 
blaming that on the military then when it was happening long 
before there was a coup? Go right ahead.
    Mr. Cinar. Chairman, that is a great question.
    I mean, the freedom of press, yes, Turkey has some problems 
on freedom of press, but investigations aren't due to their 
journalistic work but due to their support and link to 
terrorist organizations. So, when you look at, overall, some 
journalists and reporters are making propaganda of Fethullah 
Gulen before the coup and as well as PKK terrorist 
organization, and also some of the journalists also were 
sharing intelligence information to the public, which is 
illegal through the Constitution.
    And, also, I would like to highlight as an example 
journalist newspapers like Zaman. In 2010, there were some 
cases to the secular groups, and some of the secular 
journalists were in prison and set up with FETO. Most of them 
are jailed for many years. At that time, right now, the 
Gulenists are complaining about freedom of press, but in 2010 
and before, the Gulenists newspapers be quiet, and they were 
supportive of the freedom of press.
    So it seems like there is a double standard on what kind of 
freedom of press we are understanding. As I said, and I would 
like to give an example. Several thousand newspapers and 
journalists----
    Mr. Rohrabacher. Mr. Cinar, we will submit that for the 
record.
    Mr. Cinar. Sure.
    Mr. Rohrabacher. And let me just note that someone else's 
double standard doesn't excuse the current government's 
suppression before and after the coup of freedom of the press. 
Because someone else had a double standard doesn't mean that is 
an excuse.
    Mr. Cinar. I totally agree, Chairman. I mean, as I said 
from my--at the beginning, there are some problems on freedom 
of speech, but when you look at, overall, 7,000 newspapers and 
journalists, 200 TV stations, 1,000 radio stations, I mean, 
still there is freedom at some point that Turkey is operating 
and journalists are able to criticize President Erdogan and his 
party. But the reporters or journalists are linked to terrorist 
organizations; they are face, you know, to crime.
    Mr. Rohrabacher. Some may well be linked because someone 
has made that report and claimed a link. We have had four 
hearings on this now, and in the original hearings, what became 
clear is that certain journalists had lost their jobs shortly 
after they had reported on corruption of President Erdogan's 
family and appointees, which does not just jive with an excuse 
that there is not an overall attempt to suppress speech.
    To your knowledge, were there people who were reporting 
corruption in the Erdogan government? Were they arrested in the 
beginning and kicked out of their job?
    Mr. Cinar. I mean, my understanding is--I am not well 
knowledge on this, that I can't say there was a corruption or 
not.
    Mr. Rohrabacher. Okay. You can't answer that. All right. 
Well, let's go back. Just to be fair, Mr. Phillips, you 
mentioned that women were now being allowed to wear the hijab 
in a government office, and before they haven't been permitted. 
I don't think that is an indication of radical Islam: Letting 
women make a choice.
    Now, if they were forced to wear the hijab and they were 
forced to do that, that would be a sign that the people had 
gone overboard and that that was radical Islam.
    But, Mr. Phillips, do you have data that suggests that 
President Erdogan and his regime have actually sold oil from 
Syria. Are you trying to suggest to us today--and please say it 
outright if you can--that under Erdogan, the Turkish Government 
has been providing the resources to terrorist organizations 
that have been murdering people throughout the Middle East?
    Mr. Phillips. Yes, that is precisely what I am saying. 
There were 57,000 emails that had been released linking the 
Erdogan family directly to the sale of ISIS-controlled oil.
    Mr. Rohrabacher. And that money went to do what?
    Mr. Phillips. That money, which totaled, at its peak, $3 
million a day, went to ISIS to support its caliphate 
operations, which is used to kill people and to target 
Westerners.
    Mr. Rohrabacher. And do you think that, Mr. Cinar's 
observations--his right to his opinion--but do you think that 
the fact that you just stated, meaning money that is being 
syphoned off by the very top of the government and going to 
terrorists, do you think that had anything to with Erdogan's 
decision to suppress certain news outlets and to make sure that 
the press was notified that there would be a price to pay if 
certain criticism was heard?
    Mr. Phillips. Any journalist in Turkey who reports on 
corruption linking the family to ISIS activities is assured of 
losing their job and going to jail. We saw that in the case of 
the Cumhuriyet editor in chief and their foreign affairs 
editor, both of whom received more than 5-year sentences for 
reporting on the national intelligence agency's transfer of 
weapons to Islamic State fighters across the jihadi highway 
from Sanliurfa to Raqqa, which was a well-known fact, 
extensively documented.
    Mr. Rohrabacher. I will move on to Mr. Meeks, but let me 
just thank the witnesses. I think I may have a second round, 
but better get my colleagues their first round.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me start with Ms. Durakoglu. Now, foreign policy is 
very difficult, and Turkey is in a very difficult part of the 
world, and I am trying to figure out with interrelationships 
with other governments, and et cetera, how we can make sure 
that the best interest of the United States and actually the 
best interest of others, whether it is the--those in NATO and 
EU, how we figure this thing out.
    I am really concerned about--because I think your testimony 
was absolutely correct, that if I am to stand true to myself, I 
can't ignore human rights violations and individuals being 
penalized and put in prison without due process or anything of 
that nature. But I can't advocate for Turkey to be removed from 
NATO or anything of that nature because they are a vital ally, 
especially in that region.
    So, in your opinion, is there any low-hanging fruit in a 
U.S.-Turkey cooperation and the political security or economic 
fronts, something that we can do? You know, because Syria is 
right there, and we will talk about Syria and talk about--that 
is my second question. Let me just ask that first.
    Ms. Durakoglu. Thank you for your question. I think your 
question actually hits the complexity of the relationship. You 
are absolutely right. There are definitely serious domestic 
concerns within Turkey. However, there is reason for the United 
States and for NATO, in particular, which Turkey is an ally, to 
be cooperating at all times. Part of it is the geographic 
location of Turkey itself.
    In terms of your question about low-hanging fruit, before I 
mention that, I would just say President Erdogan has 
demonstrated that he appreciates continual contact with other 
leaders. And sometimes I think in the structure that Turkey 
represents at this point, the message that we might be sending 
as the United States over to Turkey may not be making its way 
up. So direct communication is key, even though it might be 
uncomfortable at times.
    In terms of low-hanging fruit, I alluded to this in my 
testimony, but what seems to be at the forefront of our 
relationship with Turkey at the moment is what is going to 
happen with the Raqqa campaign in Syria, and the United States 
is moving in a direction to work with the Syrian Democratic 
Forces, which does include YPG elements, which Turkey is highly 
uncomfortable with.
    I think some communication there, more regular contact. 
Secretary Tillerson was just in Turkey to be able to discuss 
this. However, without an end game or an end point in Syria on 
our side, it is difficult to imagine what is going to end up 
happening with Raqqa, with the forces the United States may 
choose to use there. So it is difficult to explain to a NATO 
ally like Turkey that we are going to go ahead with this 
option; however, we don't necessarily know what is going to 
come of it, and you obviously have serious concerns.
    So I think closer communication is definitely key, and 
then, of course, economic cooperation. This is something that 
the Turks raise often, I know, here in Congress as well. That 
could also be helpful.
    But continually raising the issues of Turkey's domestic 
politics and the people that are being persecuted 
unnecessarily, that is key, too. That can't be ignored.
    Mr. Meeks. So we have got have those face-to-face honest 
dialogues with our allies.
    Ms. Durakoglu. Absolutely.
    Mr. Meeks. When we think they are wrong and when we think 
they are right.
    You mentioned Syria. You know, as the chemical weapons were 
released yesterday, that is concerning to me. This is 
complicated stuff, and I don't think that the United States can 
do--I didn't think that, under President Obama--and I know you 
worked during the Obama administration--I don't think that he 
could have done anything by himself or in this country, nor do 
I think that Donald Trump can.
    So the question then becomes the relationships that--in the 
region. So I believe it was Turkey that shot down a Russian jet 
some time ago. And so what is the relationship now between 
Turkey and Russia and Iran and the whole Syria thing? All of 
that is intertwined. How does that work?
    Ms. Durakoglu. That is a really interesting question and 
one that I know Turkey watchers are continually examining, 
particularly the relationship between Turkey and Russia. The 
incident you mention happened in November 2015 where the 
Russian warplane was shot down when it impeded Turkish 
airspace. And it led to a break in relations between Turkey and 
Russia and very heated talk. Sanctions actually came into play 
as well.
    Since then, I know that President Erdogan around June 2016 
extended an olive branch. They tried to make things better. To 
be quite frank, the situation--the energy situation in Turkey 
demands that they do have a sort of cooperation as well as the 
tourism industry. There are a lot of Russian tourists that go 
to Turkey.
    So I know that Russia and Turkey are working on that 
relationship. They have had four high-level meetings, most 
recently earlier in March as well. And that is what we were 
talking about earlier. Russians are offering them more economic 
cooperation. There are discussions about Syria. However, when 
you look on the ground in Syria, suddenly there is a very 
different picture where Russians are obviously not cooperating 
with the Turks. So I don't know how long that relationship 
between Turkey and Russia will last.
    Mr. Phillips. Mr. Meeks, could I add to that answer, 
please?
    Mr. Meeks. All right.
    Mr. Phillips. I would like to recognize that the North 
Atlantic Council established something called a Membership 
Compliance Review. There are very strict criteria for getting 
into NATO. There is no process for kicking anybody out. 
Annually, each member of NATO should be subject to review of 
their democracy and human rights practices, and if they receive 
a failing score for 2 years in a row, then their membership 
should be suspended. This wouldn't only affect countries likes 
Turkey, but also Hungary would also be under review.
    And on the subject of Incirlik that we have heard so much 
about, yes, Incirlik is an important forward air base, but 
there are other options. Turkey always holds Incirlik use over 
our heads. There are bases in Jordan, in Kuwait, in Iraqi 
Kurdistan. There are British bases in Cyprus. So we can 
diversify our combat air operations without losing our capacity 
in the fight against ISIS.
    Mr. Meeks. Thank you.
    I am out of time.
    Mr. Rohrabacher. Thank you very much.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I always think that Turkey has this attitude. If 
we support an Armenian resolution--and I remember when we had 
the resolution here in Congress, the pressure that was borne, 
some of the people that supported it, you would think you were 
going to go to jail.
    If you support arming the Kurdish fighters that are 
fighting ISIS, there is going to be dire consequences. And if 
you don't return Gulen, they are going to make the U.S. 
disappear.
    I really think that, Mr. Cinar, when you talk about jailing 
or purging one-third of the journalists in the country, it is a 
little strong.
    I mean, this reminds me of my country when I was a boy. 
When the Communists took over, this is how they started. So, to 
me, I mean, this is somebody grabbing for power, and you have 
this effort where they took over 600 businesses. I mean, what 
did the businesses have with these generals? To me, it looks 
like somebody went out there and tried to get some of the 
better businesses for some of the family members or themselves. 
So there is just a couple of things here that do not jive in my 
point of view.
    And as far as NATO is concerned, I would hate to depend on 
Turkey in a crunch the way they have been moving the last few 
years.
    And, Mr. Phillips, my question to you is, if this 
resolution, if this amendment to the Constitution does not 
pass, where do you--you know, which I doubt it is not going the 
pass, from what I am hearing, where do you see Turkey going?
    Mr. Phillips. There are 12 credible public opinion polls 
that have been taken about the referendum. Eight of them say 
that the ``no'' campaign is going to win. If, in fact, the 
votes are stolen or there is an international opinion that the 
conditions for the referendum were not free and fair, this is 
going to fuel divisions in Turkey, and we could see social 
cohesion fall apart and violence become widespread.
    That is why it is important for international monitors to 
be on the ground to verify the voting conditions. We also have 
to recognize that if this referendum is approved one way or 
another, Turkey's aspirations of joining the EU are over. It 
will not be a European country. It will be increasingly inward 
looking. And as Turkey becomes inward looking, it will be less 
reliable to the United States. We always talk about Turkey's 
role fighting the Islamic State. I think that this is a 
misnomer. We need to recognize that Turkey hasn't fought the 
Islamic State; it has abetted the Islamic State with money, 
with weapons, with health care, all of which is well 
documented. We need to see things as they are, not as we wish 
them to be or how they used to be.
    Mr. Sires. Mr. Cinar, where do you see Turkey going if this 
fails?
    Mr. Cinar. Congressman, first of all, for the human rights, 
I would like to give you some examples before I jump to where 
Turkey is going. And also we need to respect the Turkish 
people. There is a government that is democratically elected, 
and the referendum is coming up, including all opposition 
parties right now. The election is going to be crystal clear, 
and everybody needs to respect the election.
    Regarding the human rights----
    Mr. Sires. So you are comfortable that this is going to be 
an honest election?
    Mr. Cinar. Yes.
    Mr. Sires. There is not going to be any interference by the 
Erdogan government?
    Mr. Cinar. Correct. In the last election, the November 
election, Congressman, all opposition parties agreed it was a 
noncorrupted election.
    Regarding the human rights, as I submitted----
    Mr. Sires. No Russian interference in the election?
    Mr. Cinar. Hopefully not.
    Let me talk about human rights and freedom of press. As an 
example, before the coup, July 13, one of the Gulen 
journalists, said, ``Busted in bed, hung by dawn.'' Or another 
one: ``You just wait and see what is to come.'' Another one: 
``Good times are just around the corner. How I wish I were a 
colonel today and not professor. Then I would have much more to 
contribute to this process.''
    Mr. Sires. What am I looking at here?
    Mr. Cinar. So these are the journalists of Gulen. So they 
were promoting the coup.
    Mr. Rohrabacher. Unfortunately, votes have just been 
called. Could you please put those in for the record of this 
hearing?
    Mr. Cinar. Sure.
    Mr. Rohrabacher. We will submit that.
    We have about 15 minutes at the most. So we have 10 
minutes. I would ask my colleagues to have about 3 minutes each 
for their questions. We will try to get you in.
    Mr. Keating. Actually, Mr. Cicilline was here first.
    Mr. Cicilline. No, Mr. Keating was.
    Mr. Rohrabacher. Mr. Keating, go right ahead. You have the 
time. Quit being too gentlemanly.
    Mr. Keating. I think that Ms. Durakoglu made four pillars, 
if you will, that we should be focused on. My discussions with 
representatives of Turkey since I have been in Congress have 
really come back to economic cooperation. There was a great 
deal of interest when there was interest in the TTIP agreement. 
Every discussion I had virtually centered on that.
    Now, with the failure of our trade agreements, I do hope 
there is a chance for even a bilateral EU and U.S. agreement. 
How important would that be, really, to find some inducement 
for Turkey to have more open discussions with the West and with 
the U.S.?
    Ms. Durakoglu. Thank you, Congressman.
    That is hugely important. You are 100 percent right. And I 
know you were very active on that issue at the time. I think, 
at the time, Turkey was nervous about the TTIP agreement and 
being left out of the economic prosperity that might take 
place. But there was a parallel conversation with Turkey about 
how they can potentially benefit. And they were engaged, and 
the United States was engaged in that conversation as well. So, 
as long as that carrot is there, that is very important to 
bring Turkey to the table, because I am of the opinion, with 
all due respect to all the viewpoints represented here, that 
are very important, but they need to continually be more 
exposed to our ideals as well as our thinking and to be able to 
understand that we do want what is in the best interest of 
Turkey, including more freedoms for their people there.
    Mr. Keating. Is there any way to ascertain what the feeling 
of the Turkish people, what it really was about the coup 
itself? We heard so much about the coup. But what about people, 
the general population? Is there any way to get a sense of how 
they perceived that?
    Ms. Durakoglu. Yes. There have been several polls. And, 
unfortunately, there is not a very positive picture to paint 
there. A lot of the polls--they do overwhelmingly believe that 
this was a Gulen-orchestrated coup. And many--and, 
unfortunately, I don't have the exact figure with me--but many 
also believe that either the Central Intelligence Agency or the 
United States was behind this, which is wrong across the board. 
But that is a prevailing view, unfortunately, in Turkey.
    Mr. Keating. I will yield because of the rollcall. Thank 
you.
    Mr. Rohrabacher. Mr. Cicilline?
    Mr. Cicilline. Thank you. Ms. Durakoglu, I appreciated your 
testimony, other than that reference to how Mr. Keating 
inspired you.
    Thank you to the witnesses.
    What I am interested to know is, with respect to the 
treatment of journalists and academics and opposition leaders, 
Mr. Phillips, would you just tell us what your assessment is 
with respect to the imprisonment of journalists and the 
conditions in which they are being imprisoned and whether in 
fact they are primarily people who have disclosed classified 
documents and the like? What is the real situation in Turkey 
right now with respect to opposition leaders and journalists?
    Mr. Phillips. Freedom House says there is no press freedom. 
According to Freedom House, Turkey does not have press freedom. 
Turkey uses legislation as the basis for arresting journalists. 
The idea that almost 2,000 journalists would have been arrested 
because they insulted the President to me represents a 
crackdown on freedom of expression. Using items in the penal 
code and the Anti-Terror Act to suppress debate is also a 
violation of freedom of expression.
    So we should just deal with the facts. Right now, more 
journalists are in jail in Turkey than in any other country in 
the world, more than China, more than Iran. A third of the 
journalists in the world who are in jail are in jail in Turkey. 
What conditions they are experiencing there, I can't say. But I 
do know that the rule of law in Turkey is an instrument to 
suppress oppositionists.
    Mr. Cicilline. Thank you.
    The other question I have is you did a significant amount 
of research about the role of Turkey both in assisting with 
logistics and transportation, support and training of ISIS 
fighters. Could you speak a little bit to that?
    And then my last question to other members of the panel is, 
what is the likelihood that in the context of the continued 
state of emergency that a referendum can be held which is free 
and fair and something upon which the international community 
and the Turkish people can rely?
    Mr. Phillips. So we were not able to use primary sources 
for our research because we weren't on the ground in Syria. We 
used credible secondary sources. We referred to Vice President 
Joe Biden's remark at Harvard, where he said that Turkey was 
the primary sponsor of ISIS. And then, through our research 
teams in Turkey, looking at Turkish language reporting in 
Europe and in North America, we came up with scores of credible 
reports that Turkey was involved in providing weapons, 
financing, logistics, serving wounded warriors in hospitals in 
Turkey. So there is ample evidence.
    Meanwhile, we hear constant protests from President Erdogan 
that Turkey is being misrepresented. I think the protests 
should be coming from the United States that Turkey, a NATO 
ally, is aiding and abetting a terrorist organization.
    Mr. Rohrabacher. Thank you.
    Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    Ms.--I hope it pronounce it right--Durakoglu?
    Ms. Durakoglu. That is right.
    Ms. Kelly. I am concerned with, after the constitutional 
referendum, I am concerned with the weakening of the 
independent branches of government because there are few checks 
and balances in place now. And, also, how will the minority 
populations be affected, as well as will there be any effect on 
military independence?
    Ms. Durakoglu. Thank you, Congresswoman.
    Yes, that is a concern. It is also a concern expressed by 
the Venice Commission that looked at the package of amendments. 
In terms of the judiciary, I think that some of the greatest 
changes in the constitutional package take place there. As I 
alluded to in my testimony, about two-thirds of Turkey's senior 
judges can now be appointed by the President. And, further, 
there is a body that actually deals with both prosecutors and 
judges in Turkey. And they end up dealing with judiciary 
issues, as well as appointing judges, and the President can 
appoint a significant amount of those members as well.
    That all being said, there have been some studies on the 
referendum and the package of amendments, and some of them in 
English actually. And there is the potential to still abide by 
checks and balances. It really does come down to the President 
under this new Presidency to be able to maintain that balance. 
So I know that there are some with the hope that President 
Erdogan, who will most likely be the President under this new 
system, be able do that. But when you look at it on paper and 
all those who have analyzed it, they have a rather bleak view 
of the separation.
    And for minority issues, I would defer to my colleague from 
the HDP.
    Mr. Yuksel. The situation is very hard because, especially 
with this situation, they shut down the television, which was 
transmitting only cartoons for the children in Kurdish. And 
after a lot of pressure, they allowed. So, even with a lot of 
translation in Turkish, or should be more than 60 percent in 
Turkish, that is how the minorities live right now, on the 
front of an assimilation. And other minorities numerically are 
less, and they are under huge pressure. And, plus, the Alawites 
in Turkey are under huge pressure because they see the regime 
changing more and more as an Islamic regime and without any 
law, like Iran, and they are afraid that they will be the next 
target.
    Mr. Cinar. Congresswoman?
    Mr. Rohrabacher. Excuse me. You got your minute because you 
are here, and we appreciate you giving the other side. But we 
are going to have to be out of here in a couple minutes. So 1 
minute. What do you got?
    Mr. Cinar. Sure. Congresswoman, Chairman, I wish at least 
we can see a little bit appreciation of Turkey's fight against 
ISIS. And I will be submitting some documents that U.S. 
Pentagon also said there is no evidence between ISIS and 
Turkey. And Turkey lost 72 security personnel on the ground and 
1,000 ISIS terrorists neutralized by Turkish army in Syria's 
operation.
    And also, regarding the human rights, and I would like to 
ask you a question, you have a look at some HDP members here 
that are promoting PKK at their meetings. Can you imagine a 
Congressman speaking----
    Mr. Rohrabacher. You want to put that in the record?
    Mr. Cinar. Sure.
    Mr. Rohrabacher. Okay.
    Mr. Cinar. Can you imagine a Congressman attending an ISIS 
leader's event and promoting the terrorist organization? So 
this is a big problem for Turkey. It is a national security 
risk.
    Mr. Rohrabacher. All right. Thank you very much.
    I am sorry. We only have got 2 minutes or 3 minutes to go 
because we have to go vote.
    Do you have a 1-minute closing statement, Mr. Meeks?
    Mr. Meeks. I want to say real quickly, number one, I want 
to thank the witnesses for your testimony. I want to thank the 
chairman for the diversity of the witnesses that you presented. 
I think you got thoughts from all sides.
    For me, this is a very difficult, difficult period, a 
difficult decision. A lot to look at. And as I said in my 
opening statement, the key to me is, the bottom line, the one 
that I have ultimate belief in is the Turkish people. So I 
should hope that the Turkish people--that is where I keep my 
hope--that I will stand with them. I will try to make sure, 
where I see atrocities, I will speak up and speak out. But I 
believe that the Turkish people will stand up. And as I have 
seen the brave ones still on the streets now protesting and 
doing what they think is necessary and others who may be on the 
other side, because ultimately that is what makes the 
difference, the Turkish people.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    And I would echo that sentiment. The Turkish people are 
voting on whether they want to have a tough, strong, 
centralized power controlling their government or whether they 
want to have more of a loose freedom and exchange. Obviously, 
we don't think they should overlook this incredible suppression 
of the press and of disagreements and dissidents that now is in 
place in Turkey as compared to the last 15 or 20 years in 
Turkey's history. Let me note that one of my colleagues said we 
don't know if we can rely on Turkish people to back us up. The 
bottom line: The whole Cold War, the Turkish people were the 
friends of the United States. We could count on them. They 
fought in Korea. They were part of the deterrent that prevented 
the Soviet Union from thinking they could come down and attack 
all of Europe.
    The Turkish people are going to the polls right now to 
decide, will they be friends of the West and the United States? 
Will they be a friend of the United States? And will they have 
a radical-oriented government, an Islamic-oriented government, 
a terrorist-oriented government in power in Turkey, or will 
they be friends of the United States and have more of a 
democratic future? That will be determined.
    I agree with Mr. Meeks; we are on the side of the people of 
Turkey. Please, I would hope that they hear our plea, remain 
our friend. Don't go to the polls and then basically join in 
this negation of a friendship that has lasted so long and done 
so much well for the people of the United States and the people 
of Turkey.
    With that, I say thank you very much. We have to go vote.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ---------- 
                              
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
     
      
      
Note: Material submitted for the record by the Honorable Dana 
Rohrabacher, a Representative in Congress from the State of California, 
and chairman, Subcommittee on Europe, Eurasia, and Emerging Threats, 
entitled ``Islamic State Networks in Turkey,'' by Merve Tahiroglu and 
Jonathan Schanzer, Foundation for Defense of Democracies, is not 
reprinted here but may be found on the Internet at: http://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=105842
      
      

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
